\ -

No. 20-399

3xx %

(Supreme (Houxi of 4f>e Httiieb (Siaief
Jung Hyun Cho et al,
Petitioners,
v.
Select Portfolio Servicing, Inc. et al.
Respondents

ON PETITION FOR REHEARING OF
THE PETITION FOR
WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
PETITION FOR WRIT OF CERTIORARI
Jung Hyun Cho
Kyu Hwang Cho
Eun Sook Cho
Eui Hyun Cho
4384 Burgess Dr.
Sacramento, CA 95838
707-761-5763

i

RECEIVED
DEC 2 2 2020

TABLE OF CONTENTS

INTRODUCTION

1-2

BACKGROUND

2-5

5-10

ARGUMENT

10

CONCLUSION

TABLE OF AUTHORITIES
CASES
United States v. Throckmorton

8

Bulloch v. United States, 763 F.2d 1115, 1121 (10th Cir. 1985)

9

Pfizer Inc. v. Lord, 456 F.2d 532 (8th Cir. 1972.........................

9

People v. Zajic, 88 III.App.3d477, 410 N.E.2d 626 (1980).......

9

Litekyv. U.S., 114 S.Ct. 1147, 1162 (1994)................................

10

Taylor v. O'Grady, 888 F.2d 1189 (7th Cir. 1989).....................

10

STATUTES AND RULES
28 U.S.C. § 455.

10

CRC Rule 8.212

6

CRC Rule 8.220

6

ii

No.20-399
In the
Supreme Court of the United States

Jung Hyun Cho et al
Petitioners,
v.
Select Portfolio Servicing, Inc. et al.
Respondents

Jung Hyun Cho, Kyu Hwang Cho, Eun Sook Cho and Eui Hyun Cho, the
Petitioners, appearing pro se in this Court, move this High Court to grant the
rehearing on No. 20-399, the petition for a writ of certiorari to the United States
Court of Appeals for Ninth Circuit. Grounds are:
1) A finding that this High Court erred in overlooking a judicially cognizable
issue central to the Eight Questions Presented: allegations of inherent systemic
deficiency inciting oppressive and discriminatory practices the Chos, as pro se
litigants, have suffered unconscionably at federal and state courts in their frustrated
efforts to seek for a fair and equal chance to be heard.
2) A reasonable doubt that the COVID-19 pandemic and the presidential
election have worked most favorably for the Chos’ legal challenge pro se for federal
redress under Civil Rights Act of 1968 aka Fair Housing Act of 1968(FHA).
INTRODUCTION
Approximately 10 million homeowners lost their homes in the aftermath of the
2007-2008 housing crisis, and most of them, racially minority groups, could not
afford to be represented to be heard. The Cho family is one of them.
The housing crash caused a global financial crisis at a superfast pace. The
rampant mortgage frauds by industry insiders targeted ethnic minority to create a

Page | 1

new market of subprime loans and were reportedly the direct cause for the global
financial crisis spurred by the 2007-2008 housing crisis.
Loan modifications for at-risk homeowners under

HAMP and National

Mortgage Settlement followed years apart at the initiative of Federal Housing
Finance Agency(FHFA), but banks, lenders, real estate brokers and eviction law
firms combined forces to game the FHFA initiative, capitalizing on pleading-stage
presumption of innocence for civil frauds and their established networks across the
state and federal courts, when compared to pro se litigants’ once-in-a-lifetime
chance to fight against those gargantuan groups of influential industry specialists.
It begs the question of why the Chos, albeit qualified, were singled out of the
loan modification benefits of HAMP TPP and even the National Mortgage
Settlement. The Chos sued.
Legal fights of this sort stayed in pleading stages for multiple years, normally 5
to 6 years, during which spoliation of evidence and unfiltered jobs of law clerks or
staff attorneys at courts are the usual thing, particularly for pro se litigants destined
to be mentally, physically and financially drained will eventually give up.
This inherent systemic deficiency is a significant betrayal of public confidence
in the judiciaiy system, and will pose an epoch-making challenge to foreseeable
post-pandemic eviction floods that are estimated to be much bigger than before.
For over three decades, the Chos have worked their butt off with a 6-7-day
workweek with a daily range of 13 to 15 hours, and is still far from being entitled to
home ownership.

BACKGROUND
The Chos immigrated into California from South Korea in late 1990. The Cho
family got into restaurant business in 1996 and continued until 2003, when they had
lost everything due to the 9/11 attacks of 2001. They were penniless, almost

Page | 2

homeless and facing a two-month notice from their rental home, and had to borrow
from friends for survival.
In efforts to rise from the ashes, the Chos had bought the property in question
in September 2004, thanks to subprime loans offered by Deutsche Bank and some
borrowings from friends. At the time, Jung Hyun Cho was aged at 27 years and Eui
Hyun at 24, young enough to expect their potential income growth in the years to
come and eager enough to support their beleaguered parents.
In purchasing the property, Jung Hyun hesitated for a while to get the subprime
loans with the AMR rates at 6.99% and 10.895%, because it was foreseeable the
payment may exceed the family’s means. However, the loan broker repeatedly
assured Jung Hyun of early refinancing within a year, and he took the loans from the
lender. Upon disbursement of the loans, however, the lender made a blitzkrieg exit
for private-label securitization purposes.
Then came the 2007 housing crash. Nonetheless, the Chos were able to keep
their mortgage payment current, and even after Countrywide Home Loans, the then
loan servicer, came in to abruptly raise the monthly payment to $4,600 from the
ongoing $3,400. The $4,600 accounted for over 80% of the then household income.
Then came the family sickness in August, 2008. Naturally, the loan default
followed because Eun Sook was diagnosed with an incurable rare genetic disease
that posed a threat of an imminent loss of vision. Cash payment for medical treatment
was the only option at that time, when there was no Obamacare, and the medical
treatment to prevent the loss of vision would have costed $5,000 per injection into
both eyes at the bimonthly interval.
The medical treatment was only available arguably at one place in the San
Francisco Bay area at that time. Finally, the generic medication at $1,800 for both
eyes for every quarterly visit was what Eun Sook Cho had to settle for.

Page | 3

Still, she gets an injection into her right eye bimonthly, with her left eye
having a vision of 20/250, legally blind.
Acquiring Countrywide in 2008, Bank of America(BofA) offered the 3-month
HAMP TPP at $2,170/month, starting in May 2010. After 7 months of the TPP
payments, BofA reneged on making it permanent for no known reason. The 7th
payment check was never cashed and not returned to the Chos.
Notices of default and cancellations, and fraudulent inducement to modification
alternately followed numerously so that the Chos had to wait instead of suing. No
official forbearance was given. Again in Feb. 2013, BofA offered another loan
modification under the National Mortgage Settlement. However, BofA played the
runaround, asking for another application by fax several months after the initial
application of Feb. 2013, ascribing it to non-receipt.
After numerous inquiries from the Chos, BofA notified the Chos of transfer of
servicing to Select Portfolio Servicing, Inc.(SPS), effective in November 2013.
BofA stated expressly the application status will remain active with SPS.
SPS stayed silent on the status for about a year. And then, SPS issued a notice
of default in September 2014 and shortly cancelled it, asking for a new application
and even an individual application each from non-obligors Kyu Hwang, Eun Sook
and Eui Hyun. The so-called dual tracking was prohibited in California, but SPS was
not and is not a California corporation.
Upon receipt of the new application, SPS played the runaround, asking for
supplementary but non-essential and repetitive information numerously from each
of the Chos. Circa April 2016, SPS offered an in-house modification, which remains
the same as the original loan payment at around $3,000, way above 31% of the
household income, the core regimen of HAMP.
After repeated requests, SPS reduced the monthly payment offer by $ 100, which
was still unsustainable for the Chos, whose household income levelled off since
Page | 4

2010 from the time of BofA’s HAMP TPP offer. Amidst over a dozen foreclosure
auction threats to extort the unsustainable offer, the Chos were able to retain a law
firm in July 2016, with a lawsuit against SPS set for mid-August 2016.
For some reason, however, the law firm failed to sue on schedule, asking the
Chos to accept the SPS offer of $2,900. After a short stint, the law firm quit the
Chos. This offer was unsustainable. For several months thereafter,

the Chos

contacted over a dozen law firms in order to sue SPS. However, none of them offered
to help. In October 2016, non-judicial foreclosure auction took place but no cash
bidders showed up.

ARGUMENT
The Chos have experienced countless incidents of oppression that undermined
the merit of this case irreparably at both federal and state courts. The foregoing
incidents might have a reasonable person entertain a doubt that pro se litigants may
get a fair and impartial trial.
The Cho, appearing pro se, have suffered irreparable damages from inherent
systemic discrimination and oppression, in addition to the loss of their home: an
insult-added-to-injury situation.
The incidents the Chos have encountered are listed as new matter that had
escaped this Court’s attention but details are minimized for brevity.
[1] State Courts
1. Now-retired two judges

for Solano County, known to have sought

corporate interest, worked together to undermine the Chos’ challenge to
jurisdictional defects and efforts to consolidate the unlawful detainer action and the
Chos’ quiet title action.[Details omitted for brevity]
2. Opposing party tactically used scorched-earth tactics

numerously to

mislead the trial court and review court to deter the Chos’ challenge to the

Page | 5

jurisdictional issue. The courts abused discretion to condone such unethical conducts
done by opposing counsels with impunity. [Details omitted for brevity]
3. Upon rendering eviction judgement, the same judge fast-tracked a related
quiet title action by sustaining untimely demurrer notwithstanding the Chos’ request
for recusal. Finally, the judge got notice of disqualification from the Chos prior to
rendering judgment. Two months later in February 2018, the two judges retired.
Eight months after the disqualification, the state court had sneaked up on judgment
to be signed by another judge who was suspected of conflict of interest.[Details
omitted for brevity]
4. The Chos’ motions came to a blanket denial. One of them for challenging
jurisdiction over eviction was cancelled by deception by a court clerk. [Details
omitted for brevity]. The Chos’ frustration caused them to sue in the federal court.
5. Appellate division intimidated the Chos by ordering the Chos to show up in
a misdemeanor court, while the Chos’ petition for transfer to an appellate court filed
months earlier was still pending. In civil disobedience, the Chos did not attend the
hearing.[Details omitted for brevity].
6. A court clerk arbitrarily returned unfiled the Chos’ flawless application for
pendency of action at a time when a possible sale of the property is impending with
a house flipper [Details omitted for brevity]. Four months later, the chiefjudge of the
court signed the same application with a new date but no correction from the
previous one. By that time, the property had been sold to the house flipper, harming
the quiet title action pending irreparably.
7. The appellate court allowed opposing counsel’s Respondent Brief to be filed
untimely without good cause, 85 days after a statutory due date, notwithstanding the
Chos’ express opposition to the 60-day extension. No court record of an official
grant of the 60-day extension. In violation of California Rule of Court(CRC) Rule
8.212 and Rule 8.220. The Rule 8.220 stipulates a ruling based on a petitioner’s
Page | 6

opening brief after failure to file within 30 days from Opening Brief filed or an
extended date granted, and also stipulates a possibility of sanction. The Chos filed a
motion for sanction on grounds of failure to file timely, but it was denied for no
cause shown.
8. The review court affirmed the superior court’s order to sustain demurrer filed
by opposing counsel. The Chos petitioned timely for a rehearing but was denied.
The Chos filed a petition with the Supreme Court of California for review but was
denied on grounds of untimely filed.
[2] Federal Courts
1. In response to the district court’s order to show cause, 30-odd judicial errors
had been claimed by the Chos, but were not entertained. Inter alia, the Chos’ motion
for default judgment based on failure to respond to summons was not entertained
timely.
2. The magistrate tribunal condoned two opposing parties to abuse consent
jurisdiction for over a year and to electronically file a consent a few days prior to
dismissal, absent service to the Chos.
)

3. A motion for Temporary Restraining Order for injunction filed by the Chos
was not timely entertained on grounds of non-existent deficiency.
4. The standards of review set by the appellate court stayed irrelevant in view
of the sliding scale of deference. It begs the question whether affirmation is based
on any substantiated discovery process that reasonably supported the affirmation.
The memorandum issued by the review court lacked substantiation of any
factual basis it stated it relied on, and appeared demonstrably circular.
The review court failed to provide a basis for skipping oral argument but fasttracked the review process to toss out the Chos’ Notice of Claim of Constitutionality
and Request for Judicial Notice, the most essential component of the case.

Page | 7

The petition for a writ for mandamus on remand was denied on questionable
grounds.
5. Fraud upon the court by a district judge with questionable jurisdiction to
alienate the removal case from the critically related federal action pending.
The actual filing date of removal(July 5,2017) had been antedated to April 24,
2017 in an attempt to create the appearance of the removal case preceding the
pending federal action(May 17, 2017). It was remanded for lack of subject matter
jurisdiction. See United States v. Throckmorton.
In Throckmorton, the Supreme Court reiterated “the general doctrine that fraud
vitiates the most solemn contracts, documents, and even judgments.”, while
balancing this doctrine with another doctrines of interest rei publicae, ut sit finis
litium, and nemo debet bis vexaripro una et eadam causa.
An excerpt from Marquette Law Review VOL. 36 Issue 2 Fall 1952:
The general rule in the United States is that the acts for which a
court of equity will grant relief from a judgment because of fraud
must relate to extrinsic or collateral fraud and that intrinsic fraud
is not sufficient.
The United States Supreme Court followed that rule in United
States v. Throckmorton, and defined extrinsic fraud as that relating
to matter not tried by the court rendering the judgment and intrinsic
fraud as that relating to matter on which the decree was rendered,
and stated that:
"Where the unsuccessful party had been prevented from
exhibiting full his case, by fraud or deception practiced on him
by his opponent, as by keeping him away from court, a false
promise of compromise; or where the defendant never had
knowledge of the suit, being kept in ignorance by acts of the
plaintiff, or where an attorney fraudulently or without authority
assumes to represent a party and connives at his defeat; or

Page | 8

where the attorney regularly employed corruptly sells out his
client's interest to the other side - these, and similar cases which
show that there has never been a real contest in the trial or
hearing of the case, are reasons for which a new suit may be
sustained to set aside and annul the former judgment or decree,
and open the case for a new and fair hearing."
Whenever any officer of the court commits fraud during a proceeding in the
court, he/she is engaged in "fraud upon the court". In Bulloch v. United States, 763
F.2d 1115, 1121 (10th Cir. 1985), the court stated "[Fjraud upon the court is
fraud which is directed to the judicial machinery itself and is not fraud between the
parties or fraudulent documents, false statements or perjury.”
By all appearances, the self-evident antedating is far from a harmless error, but
more likely to be viewed by any reasonable observer as an egregious attempt to
suppress the solid basis of law and facts that supported removal.
It begs the question as to whether an Article III judge can betray the will of
people by making it more likely that the impartiality of the court has been so
disrupted that it can’t perform its tasks without bias or prejudice.
In Pfizer Inc. v. Lord, 456 F.2d 532 (8th Cir. 1972), the Court stated that "[I]t
is important that the litigant not only actually receive justice, but that he believes
that he has received justice. None of the orders issued by any judge who has been
disqualified by law would appear to be valid. It would appear that they are void as
a matter of law, and are of no legalforce or effect.”
Some may argue judge disqualification in an isolated and independent case is
not appealable on grounds of judicial immunity, but the appearance of lack of
impartiality spaced over a timeline of two related cases caused by an arguably
disqualified judge appears to be in a different dimension of appealability, simply
because “a judge is not the court”. See People v. Zajic, 88 Ill.App.3d 477, 410N.E.2d
626 (1980).
Page | 9

In 1994, the U.S. Supreme Court held that "[DJisqualification is required ifan
objective observer would entertain reasonable questions about the judge's
impartiality. If a judge's attitude or state of mind leads a detached observer to
conclude that a fair and impartial hearing is unlikely, the judge must be
disqualified." SeeLitekyv. U.S., 114S.Ct. 1147, 1162 (1994).
The Supreme Court has also held that “[iff a judge wars against the
Constitution, or if he acts without jurisdiction, he has engaged in treason to the
Constitution. If ajudge acts after he has been automatically disqualified by law, then
he is acting without jurisdiction, and that suggest that he is then engaging in
criminal acts of treason, and may be engaged in extortion and the interference with
interstate commerce.''''
The Chos filed a motion to quash remand by the non-assigned Article III
judge and recusal, but was not entertained,
“Recusal under 28 U.S.C § 455 is self-executing; a party need not file
affidavits in support of recusal and the judge is obligated to recuse herself sua
sponte under the stated circumstances." Taylor v. O'Grady, 888 F.2d 1189 (7th Cir.
1989).

CONCLUSION
Contrary to landmark decisions for similar FHA arguments, no equitable relief
has been accorded to the Chos all across the federal and state trial courts and review
courts. This fact threatens a severe attack on the law of the land and due process,
The COVID-19 has deprived the Chos of a better chance to access equitable
remedies as well as any third-party help or amicus briefs, let alone hardships of
document preparations pro se.
The Chos respectfully pray for a rehearing on the petition for certiorari.

Page | 10

Respectfully Submitted

Jung Hyun Cho, Petitioner Pro Se
4384 Burgess Dr.
Sacramento, CA 95841
(707)761-5763
chmyr@naver.com
Date: December 16, 2020

Page | 11

No.20-399
In the
Supreme Court of the United States

Jung Hyun Cho et al,
Petitioners,
v.
Select Portfolio Servicing, Inc. et al.
Respondents

PROOF OF SERVICE
I, Jung Hyun Cho, do declare that on this date, December 16, 2020, as required by
Supreme Court Rule 29,1 have served the enclosed PETITION FOR REHEARING OF
NO. 20-399 on each party to the above proceeding by electronically mailing the documents.
The names and addresses of those served are as follows:
Select Portfolio Servicing, Inc.
c/o Buchalter
Tiffany F. Ng / Douglas C. Straus
55 Second Street Suite 1700
San Francisco, California 94105-3493
Deutsche Bank National Trust Company
c/o Buchalter
Tiffany F. Ng / Douglas C. Straus
55 Second Street Suite 1700
San Francisco, California 94105-3493
Email: tng@buchalter.com :dstraus@buchalter.com
Bank of America
c/o SEVERSON & WERSON
Joel Spann, Jan T. Chilton, Kerry W. Franich
One Embarcadero Center 26th Floor
San Francisco, CA94111
Email: jcs@severson.com;jtc@severson.com;kwf@severson.com
WMC Mortgage LLC
c/o Jamie L. Ackeerman
140 New Port Center Drive, Suite 260
Email: Jamie@NewportCoastlaw.com

Page | 12

The Wolf Firm, a law corporation
Christine E. Howson
2955 Main Street, 2nd floor
Irvine, CA 92614
Christine.howson@wolffirm.com
Ronald Lee
c/o Klinedinst
Lindsey N. Casillas
801 K Street, Ste. 2100
Sacramento, California 95814
Email: LCasillas@KlinedinstLaw.com
Juan Gomez
c/o Klinedinst
Lindsey N. Casillas
801 K Street, Ste. 2100
Sacramento, California 95814
Email: LCasillas@KlinedinstLaw.com
Solano County Tax Assessor
c/o Matheny Sears Linkert Jaime LLP
Raymond Bangle III
3638 American River Drive
Sacramento, CA95864
New Port Beach, CA 92660
Email: rbangle@mathenysears.com

I declare under penalty of perjury that the foregoing is true and correct.
Executed on December 16, 2020

Jung Hyun Cho

Page | 13

CERTIFICATION OF GOOD FAITH
I, Kyu Hwang Cho, do certify that this petition for the rehearing of this Court’s
decision of Nov. 23, 2020 on No. 20-399. PETITION FOR WRIT OF
CERTIORARI, is timely filed in compliance with Rule 34 and Rule 33(g),
and on the restricted grounds specified in Para. 2, Rule 44, of which details
are delineated herein, and that it is presented in good faith and not for delay.
The Filing Fee of $200 is enclosed herein.

Jung Hyun Cho, Petitioner
4384 Burgess Dr.
Sacramento, CA95838
Mobile (707)761-5763

Page | 14

